March 31, 2011

TIMOTHY F. O’REILLY
ACTING VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2010 Postal Service Financial Statements Audit –
         St. Louis Information Technology and Accounting Service Center
         (Report Number FT-AR-11-009)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service St. Louis, MO, Information Technology
and Accounting Service Center (IT/ASC) for the fiscal year (FY) ended September 30,
2010 (Project Number 10BM002FT000).1 We conducted this audit in support of the
independent public accounting firm’s (IPA) overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.2 This audit addressed
financial risk. See Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year (CY) 2002 to strengthen public confidence in the
accuracy and reliability of financial reporting. Section 404 of SOX requires management
to state its responsibility for establishing and maintaining an adequate internal control
structure and make an assertion on the effectiveness of the internal control structure
over financial reporting. The Postal Accountability and Enhancement Act of 2006
requires the Postal Service to comply with Section 404 of the SOX Act of 2002
beginning in FY 2010. The Board of Governors (Board) contracted with the IPA to
express an opinion on the Postal Service’s financial statements, and beginning in
FY 2010, that responsibility was expanded to include an opinion on the Postal Service’s
internal control over financial reporting.




1
  During FY 2010, the International Accounting Branch (IAB) was separated from the St. Louis IT/ASC. However, our
audit work includes this area.
2
  The IPA maintains overall responsibility for testing and review of significant St. Louis IT/ASC accounts and
processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure
adequate coverage.
Fiscal Year 2010 Postal Service Financial Statements Audit –                                                    FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


Conclusion

During our audit of the St. Louis IT/ASC we noted:

   Financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure3 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
    account balances for assets, liabilities, equity, income, and expenses of the Postal
    Service are fairly stated in accordance with accounting principles generally accepted
    in the U.S.

   General ledger account balances conform with the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service is in compliance with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.

We did not propose any adjustments; however, throughout the year, we reviewed
internal controls over financial reporting and identified control deficiencies4 regarding
international mail, money orders, transportation, eTravel, leases, journal voucher
entries, and account reconciliations. Because these controls are considered key,5 any
error could impact the IPA’s opinion on internal controls over financial reporting.
Therefore, we brought them to management’s attention at the time of discovery to assist
them with their responsibility for establishing and maintaining an adequate internal
control structure over financial reporting. The IPA identified additional information
systems control deficiencies affecting the St. Louis IT/ASC that were not in the scope of
our audit and are not reported here, including monitoring controls, missing or incomplete
documentation, no evidence of review, and access to systems not timely being
removed. The IPA informed management of these issues on October 19, 2010.

International Outbound Parcel Post® Rates6

During the IAB’s internal review of international outbound Parcel Post rates in the
Foreign Post Settlement (FPS) System, a reviewer changed the rates in FPS for one
foreign postal administration (FPA)7 believing they were incorrect. However, the
reviewer did not report the discrepancy and subsequent change of the rates to the
group leader responsible for review and approval of Parcel Post rates. IAB personnel

3
  To ensure key controls are properly designed and operationally effective.
4
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct, misstatements on a timely
basis.
5
  A key control is a control that, if it fails, there is at least a reasonable likelihood that a material error in the financial
statements would not be prevented or detected on a timely basis.
6
  Parcel Post is a trademark of the Postal Service.
7
  The FPA was Guadeloupe.


                                                               2
Fiscal Year 2010 Postal Service Financial Statements Audit –                                              FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


stated this occurred because the reviewer was not familiar with the procedure. As a
result, the rates entered in FPS by the reviewer were incorrect. Based on our audit,
management corrected the rates in the FPS System in May 2010. Additionally,
according to IAB personnel, an approval process in the FPS System is now fully
functional that requires personnel to inactivate a rate before they enter a new rate, and
both actions require approvals from two levels of management with supporting
documentation. Since the subject FPA had not submitted an invoice since CY 2002, this
error resulted in no overall financial effect. Because the IPA firm identified a significant
deficiency in the international mail process, we did not perform any further work to verify
the application’s functionality.8

International Inbound Verification Note Reviews

The                                                                   did not review
inbound verification notes (VN) created by the           . This occurred because the
                was unaware of the documented control to review VNs created for
inbound dispatches. This key internal control helps ensure the accuracy of international
receivables and revenue so when it is not effectively executed, they could be misstated.
As a result of our audit, management implemented the control, and the
began reviewing inbound dispatches in August 2010.

Money Order Edit Errors Processing

Two of 42 money order edit errors selected11 remained unresolved for more than
3 months. These edit errors pertained to duplicate money order serial numbers. General
Accounting Branch (GAB) desk procedures do not address the timeframe to resolve
money order edit errors; however, branch personnel strive to resolve them within
1 week to reduce the financial impact of the edit error on the general ledger. Although
GAB personnel identified and processed these edit errors as part of their daily workload,
they overlooked completing the process. These unresolved edit errors increased the
Postal Service’s money order liability account by $480. As a result of our audit,
management processed the edits errors. In addition, management improved their
existing process of monitoring edit errors by adding additional spreadsheets to track the
status of these errors.




8
  A significant deficiency is a control deficiency or combination of control deficiencies that adversely affects the
entity’s ability to initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the entity’s internal
control. Although this issue alone did not support a significant deficiency, the IPA determined a significant deficiency
existed in the international mail process.
9
  Verification Notes (CN 43) are used to communicate irregularities in the dispatch and receipt of international mail
between FPAs. RU clerks generate and print these forms within the International Reconciliation System (IRS) and
                                             ®
mail them to the FPAs via Express Mail to reconcile irregularities in the dispatch and receipt of international mail.
10
   Effective May 11, 2009.
11
   The judgmental sample of errors included duplicate money order payments and duplicate money order serial
numbers.


                                                            3
Fiscal Year 2010 Postal Service Financial Statements Audit –                                       FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


Air Transportation Contract Requisition Approval

During our review of eight eBuy requisitions, we found that a
approved an air transportation contract within the Logistics Contract Management
System (LCMS) without verifying the eBuy requisition12 had been properly approved
and funded as required. Postal Service policy13 requires a         to ensure that sufficient
funding has been approved before making a contractual commitment or incurring
potential liabilities for the Postal Service. Further, procedures14 include a key internal
control requiring the                                         verify that the contract is
appropriately funded as indicated by an eBuy approval notification. According to
management, the in-process requisition may not have been fully approved and
executed partly due to management and/or system changes. While they assured us the
contract was valid, that there was an approved budget for the services, and that the
appropriate approvers were involved with the contractual actions, there was an
oversight in ensuring that the requisition was fully executed. When           do not execute
this key control, the Postal Service might not have the funds necessary to pay its
obligations, or it might be obligated to pay for a contractual commitment that was not
management’s intent. Management indicated they would obtain appropriate eBuy
requisition approvals during the FY 2011 air contracts renewal/approval process. As
such, we will continue to monitor this key control over the air contract funding process
as part of our FY 2011 financial statement audit work. See Appendix C for calculation of
monetary impact.

Rejected Travel Expense Report Processing

The St. Louis Accounts Payable Branch (APB) back office processing15 supervisor did
not follow up on two of 25 rejected travel expense reports to ensure timely resolution
and processing. Postal Service’s key internal control16 states the senior accounting
specialist reviews the correction of records with exceptions on the Payables Open
Interface Rejections Report from eTravel and then reviews the corrections for accuracy.
The senior accounting specialist resolves any inappropriate corrections with the
accounting specialist. The review is evidenced by sign-off on the Payables Validation
Report from Oracle Accounts Payable (OAP). Postal Service’s key internal control17
also requires a back office processing supervisor review and follow up with the
processor on any reports remaining in an approval status on the Accounting Review
Report greater than 7 workdays to determine resolution and ensure exceptions are
resolved.



12
   This was an air transportation requisition valued at $39.8 million.
13
   United States Postal Service Supply Management Transportation Portfolio Administrative Instruction, SMTP-2005-
01, dated April 7, 2005.
14
   United States Postal Service Business Process Narrative 211, Accounts Payable Branch – Air Transportation.
15
   According to Handbook F-15 Travel and Relocation, dated February 2004, updated with Postal Bulletin revisions
through January 28, 2010, St. Louis APB back office processing personnel perform random audits of scanned reports
and process expense reports for payment.
16
   Postal Service Control Number 207.05.
17
   Postal Service Control Number 207.17.


                                                        4
Fiscal Year 2010 Postal Service Financial Statements Audit –                                           FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


The two reports were rejected for missing account numbers but were corrected and
processed to OAP. However, these invoices remained on hold in OAP awaiting
validation. The back office processing supervisor did not review the Daily Balance
Control Report generated from National Accounting Oracle Financial Application
(NAOFA) that showed these transactions still were not approved. As a result, the APB
paid these rejected expense reports 26 and 29 days from the date employees submitted
them for payment. When personnel do not follow up to ensure timely resolution and
processing, travel expense reimbursements may not be reflected in the financial
statements in the same period as they are incurred. According to management,
additional informal training was provided to back office processing personnel in
March 2010 to reiterate the requirement to process rejected expense reports timely. We
will continue to review this issue as part of our annual financial statement audit work.

New Lease Approvals

Controls over new lease approvals needed improvement. We identified one or more
exceptions on 12 of 25 new leases reviewed.18 Specifically, 10 leases did not have a
Justification of Expenditure (JOE)19 form included in the required documentation. In
addition, officials signed two leases, even though they did not have the proper
contracting authority at the time they signed the leases.

Leases were missing the required JOE because the policy surrounding the
requirements of a JOE was inconsistent between Handbook F-66C, Field Investment
Policies and Procedures and Handbook F-66, General Investment Policies and
Procedures. 20 Handbook F-66C states a JOE is required for a new lease for an existing
facility. However, a portion of Handbook F-66 states a JOE is not required for a new
lease for the current facility. The differing policy caused inconsistencies in support
obtained by responsible FSO personnel.

Postal Service policy requires approval for all projects within the delegations of approval
authority specified by the vice president, Finance, controller.21 According to facilities
personnel, one officer was removed from the system prematurely because there was no
expiration date for contracting authority. The other officer’s expiration date for her
contracting authority was not updated in the system.



18
   We identified one or more exceptions at six of the seven facility service offices (FSO) sampled. No exception noted
at the Pacific FSO.
19
   A 1-page document used to request approval for Postal Service support systems, small field projects and
headquarters projects with costs between $25,000 and $250,000. It briefly defines the problem or need for an
investment; describes operational improvements; identifies alternatives; identifies operational costs or savings and
service impacts; includes a recommendation, justification, and pertinent budget information; and provides appropriate
backup information. Postal Control Number 208.56.
20
   Handbook F-66, General Investment Policies and Procedures, published November 2005, has been updated via
Postal Bulletins through October 11, 2007. Handbook F66C, published March 2006, has been updated through April
13, 2006, via Postal Bulletins. Postal Control Number 208.43.
21
   Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property Acquisitions and Related Services, originally
published October 2006, has been updated through October 2008. Postal Service Control Number 208.56. Postal
Service Control Number 208.43.


                                                          5
Fiscal Year 2010 Postal Service Financial Statements Audit –                                    FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


When personnel do not include required documentation or verify officials have the
appropriate CO authority before executing new leases, there is risk of improper leases.
As a result of our audit, management provided FSO personnel in January 2011 with
documentation that clarifies the policy regarding JOEs as they pertain to new leases. In
addition, management instituted a monthly review of expiring approval authorities along
with an instruction that these approval authorities should expire and remain in the
system. See Appendix C for calculation of monetary impact.

Appraisal and Appraisal Checklist

We reviewed 25 lease appraisals and found nine did not have appropriate signatures
and/or did not have the appropriate documentation as required by policy.22

                                                             NUMBER OF OCCURRENCES
                                        Value of Rent greater      Value of Rent      Value of Rent less than
   EXCEPTION DESCRIPTION                   than $500,000        $250,000 – $500,000          $250,000
FSO In-House Real Estate
Specialist (RES) did not sign                     22                                            1
appraisal checklist.
Contract appraiser (Headquarters
contract review appraiser) did not                2
sign appraisal checklist.
RES did not sign appraisal
                                                   2
checklist
No Appraisal/Appraisal
                                                   4
Outdated/Summary Not Dated.
No Appraisal Checklist on file/ Not
                                                   2
correct version.

                TOTAL                             4                      10                     1


Postal Service policy23 requires contract appraisals for new, leased construction, and
alternate quarters projects when the annual rent exceeds $150,000. Leases or contract
renewals where the anticipated annual rent is $150,000 or more also require a contract
appraisal. Key internal controls require the RES to review the appraisal for contractual
details. An FSO in-house RES reviewer performs an administrative review and sends
appraisals greater than or equal to $500,000 to a contract appraiser to ensure proper
methodology and reasoning and that standards were followed. The reviewers complete
the Appraisal Checklist and Reviews document and sign as evidence of approval.

These errors occurred because a consistent application of policies does not exist across
FSOs. When personnel do not properly approve appraisals, rental payments could
exceed prevailing market rates. As a result of our audit, in June 2010, management
provided lease appraisal completion training to applicable personnel. In addition, they
revised the appraisal checklist to ensure personnel obtain applicable signatures as
required. See Appendix C for calculation of monetary impact.
22
     Some leases had more than one error. Postal Service Control Number 302.21.
23
     Handbook RE-1.


                                                         6
Fiscal Year 2010 Postal Service Financial Statements Audit –                                      FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


Journal Voucher Entry Review and Approval

St. Louis ASC personnel did not review or approve the completed Postal Service (PS)
Forms 824, Journal Entry Form, or compare the accounting entries to the supporting
documentation as required for three journal vouchers.24 For one journal voucher,
personnel used the incorrect amount for the land value when calculating the building
impairment amount,25 which resulted in overstating the impairment expense account
and the building expense account by $400.26 In addition, two journal voucher entries
related to Contract Postal Unit Technology yielded one or more discrepancies
including:

    Based on evidence obtained, a second review was not performed as required.
     Subsequent evidence showed the second approver later signed and backdated the
     journal voucher.

    Personnel transposed debit and credit entries on one journal voucher entry, and
     although they attempted to correct the error, it was still inaccurate.

    Descriptions on the journal voucher and supporting documentation did not reflect the
     entry.

    Amounts on the documents did not match the general ledger, and no explanations
     were noted on supporting documentation.

These errors occurred due to an oversight. When personnel do not review journal
voucher entries, there is an increased risk of misstatement. As a result of our audit,
management corrected the journal voucher entries. In addition, according to ASC
personnel, applicable personnel received additional training in March 2010 to ensure
these issues do not occur in the future. We will continue to review journal voucher
entries as part of our annual financial statement audit work.

Account Reconciliations

We reviewed account reconciliations for material accounts and identified five errors in
PS Form 3131, Standard Reconciliation of Accounts. Account reconciliations are a
detective control designed to ensure the accuracy of general ledger account balances.
A Postal Service key internal control27 states ASC personnel are responsible for
reviewing the adequacy of the supporting documentation and the reasonableness of the
account reconciliations. When account reconciliations are inaccurate, there is risk of
significant financial statement misstatements. We notified the IPA of these errors to
assist it with its consideration of overall control risk. As a result of our audit,

24
   Postal Service Control Number 302.19.
25
   The ASC separated the building and land book values to calculate the amount of the adjustment based on the
current appraised value.
26
   Account 54621, Impairment Expense – USPS Owned Buildings and Account 17121.069, USPS-Owned Building
(Write off as Expense).
27
   Postal Service Control Number 208 .25; Postal Service Control Number 302.18.


                                                       7
Fiscal Year 2010 Postal Service Financial Statements Audit –                FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


management resolved or is in the process of resolving all errors. See Appendix B for
our detailed analysis of this topic.

Progress on Prior Years’ Recommendations

We followed up on recommendations concerning highway extra trips, international mail,
and controls over money orders. As a result of our review, we closed all
recommendations for highway extra trips and international mail, but three remain
outstanding for money orders. See Appendix B for our detailed analysis of this topic.

Because of management’s continuing efforts and improvements in the items noted, we
are not making any recommendations at this time. As a result, management chose not
to respond formally to this report. We will continue to evaluate the effectiveness of
management’s efforts as part of our annual financial statement audit work.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Stephen J. Nickerson
    Jean D. Parris
    Steven R. Phelps
    Sheryl L. Stone
    Corporate Audit and Response Management




                                                   8
Fiscal Year 2010 Postal Service Financial Statements Audit –                                             FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The St. Louis IT/ASC is one of three Postal Service ASCs.28 Its employees are
responsible for accounting functions related to money orders, real property,
transportation, international mail,29 and accounts payable.30 Employees at this facility
are also responsible for processing financial and accountability data from field units.

We have issued separate financial statements audit reports for headquarters and the
Eagan IT/ASC and will issue a separate report for the San Mateo IT/ASC. Further, in
addition to the overall opinions on the Postal Service’s financial statements and internal
controls over financial reporting, the Board’s IPA issued a separate report on its
consideration of the Postal Service’s internal controls and its test of compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of that
report was to describe the scope of testing of internal control over financial reporting
and compliance and the results of that testing, not to provide an opinion on internal
controls over financial reporting or on compliance.31 The OIG issued a separate report
for the audit of the FY 2010 information system controls at the Eagan, San Mateo, and
St. Louis IT/ASCs; and the Raleigh Information Technology Service Center.32

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:33

    Financial accounting policies and procedures of the Postal Service provide for an
     adequate internal control structure34 and comply with accounting principles generally
     accepted in the U.S.

    Accounting transactions at the St. Louis IT/ASC that impact the general ledger
     account balances for assets, liabilities, equity, income, and expenses of the Postal
     Service are fairly stated in accordance with accounting principles generally accepted
     in the U.S.

    General ledger account balances conform to the general classification of accounts of
     the Postal Service on a basis consistent with that of the previous year.

28
   Other ASCs are located in Eagan, MN, and San Mateo, CA.
29
   During FY 2010, management separated the IAB from the St. Louis IT/ASC. However, our audit work includes this
area.
30
   Includes accounting for rents and leases, contract stations, vehicle hire, uniform allowance, indemnity claims, tort
claims, and eTravel.
31
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
IT/ASCs, field sites, and the Raleigh, NC, Information Technology Service Center.
32
   Fiscal Year 2010 Selected Information Technology General Controls (Report Number IT-AR-11-002, dated
January 12, 2011).
33
   The IPA maintains overall responsibility for testing and review of significant St. Louis IT/ASC accounts and
processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
34
   To ensure key controls are properly designed and operationally effective.


                                                           9
Fiscal Year 2010 Postal Service Financial Statements Audit –                   FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


     
   The Postal Service complies with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2009 through March 2011 in
accordance with the standards of the Public Company Accounting Oversight Board
(United States) (PCAOB) and the standards applicable to financial audits contained in
the Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also includes obtaining a sufficient understanding of
internal controls to plan the audit and to determine the nature, timing, and extent of
audit procedures to be performed. We believe the evidence obtained provides a
reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements are free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards might not detect a material misstatement. However, the
IPA and the OIG are responsible for ensuring that appropriate Postal Service officials
are aware of any significant deficiencies that come to our attention. We discussed our
conclusions with management on March 10, 2011, and included their comments where
appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including:

   Accounting Data Mart.
   electronic Facilities Management System (eFMS).
   eTravel System.
   FPS System.
   Global Business System (GBS).
   LCMS.
   Money Order Database.
   Money Order Inquiry System.
   NAOFA.
   Retek Merchandising System.
   Transportation Contract Support System.

To assess the reliability of these systems’ data, we performed specific internal control
and transaction tests, including tracing selected financial information to supporting



                                                  10
  Fiscal Year 2010 Postal Service Financial Statements Audit –                                             FT-AR-11-009
   St. Louis Information Technology and Accounting Service Center


  source records. For example, we verified that payment authorizations supported
  payments recorded in the eFMS. We determined that the data were sufficiently reliable
  for purposes of this report.

  PRIOR AUDIT COVERAGE

  We issued the following reports addressing selected financial activities and accounting
  records at the St. Louis IT/ASC. We discuss the control issues further in the “Progress
  on Prior Years' Recommendations” section of this report.35

                                                  Final
                             Report                               Monetary
    Report Title                                 Report                                         Report Results
                             Number                                Impact
                                                  Date
New York                                                                        Volume data used to bill FPAs for
International                                                                   inbound Express Mail and letter
Service Center –          FT-AR-08-005        1/24/2008           $13,700,604   class service was not always
Inbound                                                                         accurate. We closed two significant
International Mail                                                              recommendations during our audit.
                                                                                A significant deficiency existed with
Fiscal Year 2007                                                                international mail.36 We also
Postal Service                                                                  identified control deficiencies
Financial Statement                                                             regarding extra highway trips,
Audit – St. Louis                                                               transportation systems’ access,
                          FT-AR-08-010        3/31/2008                $6,644
Information                                                                     eTravel claims, CPU payments,
Technology and                                                                  and property transactions. We
Accounting Service                                                              closed one significant
Center                                                                          recommendation regarding extra
                                                                                highway trips during our audit.
                                                                                Volume data used to bill FPAs for
                                                                                inbound international letter post,
Los Angeles
                                                                                Parcel Post, and Express Mail
International
                                                                                service was not always accurate
Service Center –          FT-AR-10-001        10/13/2009               $163,000
                                                                                and properly supported. We closed
Inbound
                                                                                the significant recommendation to
International Mail
                                                                                expedite approved SCRs pertaining
                                                                                to the IRS during our audit.




  35
     The transportation systems’ access, eTravel claims, contract postal unit (CPU) payments, and property
  transactions issues are not included there. However, management either took corrective action during the audit, the
  recommendations are not significant, or the recommendations are closed.
  36
     The IPA reported this in its Report on Internal Control Over Financial Reporting and on Compliance and Other
  Matters Based on an Audit of Financial Statements Performed in Accordance with Government Auditing Standards
  (dated November 14, 2007). A significant deficiency is a control deficiency or combination of control deficiencies that
  adversely affects the entity’s ability to initiate, authorize, record, process, or report financial data reliably in
  accordance with generally accepted accounting principles such that there is more than a remote likelihood that a
  misstatement of the entity’s financial statements that is more than inconsequential will not be prevented or detected
  by the entity’s internal control. The IPA reclassified the significant deficiency as a control deficiency in FY 2008.
  However, the IPA elevated the deficiency to a significant deficiency once again in FY 2010.


                                                            11
  Fiscal Year 2010 Postal Service Financial Statements Audit –                         FT-AR-11-009
   St. Louis Information Technology and Accounting Service Center


                                           Final
                         Report                          Monetary
   Report Title                           Report                              Report Results
                         Number                           Impact
                                           Date
                                                                     Controls over money order
                                                                     replacement checks, account
                                                                     reconciliations, and escheatment
                                                                     needed improvement. Management
Controls Over
                      FT-AR-10-009      2/22/2010         $532,716   agreed to all seven
Money Orders
                                                                     recommendations, of which, four
                                                                     were closed during our audit. None
                                                                     of the recommendations were
                                                                     significant.




                                                    12
Fiscal Year 2010 Postal Service Financial Statements Audit –                                           FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


                              APPENDIX B: DETAILED INFORMATION

Account Reconciliations

We reviewed account reconciliations for material accounts and identified five errors in
PS Form 3131. The five reconciliation errors are as follows:

    Account 16125, Building Improvement.37 This account had an unreconciled
     difference every month since October 2008 and adjustments to the subsidiary
     ledger38 ranged from $142 to $2,644,550. Management was aware of the
     unreconciled differences in this account and had reported them each month to
     Corporate Financial Reporting. Our review of the April and May 2010 reconciliations
     showed adjustments to the subsidiary ledger of $22,251 and $531,283.
     Management concluded that these differences existed because the subsystem,
     eFMS, was not designed to accommodate all financial cut-offs and detailed
     transaction records.39 By the end of FY 2010, ASC personnel developed a new
     report, CIP (Construction in Progress) Subledger – YTD (Year to Date), along with a
     new process to track each project from inception to final closure.40 As a result, in
     September 2010, ASC personnel were able to reconcile the CIP subsidiary ledger to
     the general ledger.41

    Account 13810, Mortgage Receivable. This account balance included a delinquent
     amount of $347,447.42 The balance pertained to three debtors, including a debtor’s
     balance of $242,000 that the FSO personnel stated had already been collected by
     the Postal Service 2 years ago. However, ASC personnel could not verify receipt of
     the cash, so the account was not updated to reflect receipt of the payment. They will
     continue to work with FSO personnel to obtain the needed support to expense this
     portion. ASC personnel noted another debtor’s balance of $105,023 continued to
     show quarterly payment activity although support was not available to verify the
     activity. Finally, ASC personnel plan to expense the remaining debtor balance of
     $424 by July 2011.

     Account 15130, Employee Travel Advances. This account had adjustments to the
     general ledger balance for $1,442 for advances made from FYs 2001 through 2005
     that ASC personnel never cleared. ASC personnel stated there was no formal policy
     for uncollected travel advances, although an informal policy allows them to expense
     adjustments under $500,000. At the time of our audit, Postal Service management

37
   Account 16125, Building Improvement -This account is also referred to as CIP, which records the cost of design
construction and support services related to building improvement projects.
38
   Adjustments to subsidiary ledger is a line item on the PS Form 3131 to record explained differences or reconciling
items.
39
   Per the new policy issued in May 2010, entitled Unrecognized Differences.
40
   This new report can identify reconciling issues timely, such as payment timing issues, wrongfully cancelled
projects, and erroneous closeouts. The new process also identifies projects that are not balancing due to sporadic
system problems that IT continues to research.
41
   There were several journal voucher adjustments to the subsidiary ledger plus a $3.96-million adjustment because
of project timing differences identified in the new subsidiary report.
42
   Delinquent for more than 366 days.


                                                          13
Fiscal Year 2010 Postal Service Financial Statements Audit –                                          FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


     determined the outstanding travel advances were uncollectible and adjusted the
     subsidiary ledger as they were not expensed on the general ledger in a timely
     manner.

    Account 23463, Deposits by Contractors - Others and Reconciliation. We noted an
     unsupported amount of $656,826 in supplier balances, of which the ASC stated it
     was aware. The preparer, approving official, or systems accountant did not sign or
     date the May 2010 amended reconciliation provided. At the time of our audit, the
     ASC had undertaken the task of creating a subsidiary ledger for this account rather
     than using a carry forward balance adjusted for monthly activity. ASC personnel
     performed additional research and located support for approximately $165,300 of
     this balance. They expensed the remaining unsupported balance of $491,526 in
     August 2010.

    Account 23465, Current Portion Depreciation and Escrow43- Facility Transfer. This
     account contained an escrow balance of $181,745 since September 2009. The
     Postal Service received payment in FY 2009, but personnel did not reflect it in the
     general ledger. Based on our audit, ASC personnel cleared the escrow in July 2010.

Progress on Prior Years’ Recommendations

We followed up on recommendations concerning highway extra trips, international mail,
and controls over money orders.

Highway Transportation Extra Trips44

The current payment process did not include validation from the destination facility.
Instead, the originating facility initiated and maintained control of authorization and
certification and submitted certification forms directly to the St. Louis IT/ASC for further
processing. In response to our recommendation to modify policies and procedures,
management issued a policy letter on March 11, 2009, that requires the facility manager
or postmaster to verify the extra service is justified and sign the PS Form 5397, Contract
Route Extra Trip Authorized. It also requires personnel to enter the information in
Surface Visibility or Transportation Information Management Evaluation System, which
the administrative official uses to verify services performed as part of the certification of
payment process. In addition, area offices established tracking procedures to monitor
and account for extra service use. As a result, we closed the outstanding significant
recommendation on October 13, 2010.




43
   An escrow is an arrangement where an independent trusted third-party receives and disburses money and/or
documents for two or more transacting parties, with the timing of such disbursement by the third-party dependent on
the performance by the parties of agreed-upon contractual provisions.
44
   Fiscal Year 2007 Postal Service Financial Statement Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-08-010, dated March 31, 2008).


                                                         14
Fiscal Year 2010 Postal Service Financial Statements Audit –                                       FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


New York International Service Center – Inbound International Mail45

Volume data used to bill FPAs for inbound Express Mail46 and letter class service was
not always accurate. In response to our recommendation to establish and communicate
policies and procedures to address the complete processing and billing cycle for
inbound international mail, management developed and communicated those policies
with relevant parties 3 months after implementing the new settlement system. In
response to our recommendation to direct IAB and appropriate systems personnel to
establish controls to ensure that FPAs are correctly billed for all valid dispatches,
management communicated and distributed standard operating procedures to
appropriate personnel. We also confirmed that management implemented critical
software change requests (SCR) for the GBS. As a result, we closed the outstanding
significant recommendations on April 20, 2010, and April 7, 2010, respectively.

Los Angeles International Service Center – Inbound International Mail47
 
Volume data used to bill FPAs for inbound international letter post, Parcel Post,48 and
Express Mail service was not always accurate and properly supported. Specifically,
proper source documentation was not always available and weights and piece counts
were not always correct. We recommended management expedite approved SCRs to
enable the IRS (a subsystem of GBS) to reconcile data and provide valid dispatch-level
data for billing. Management implemented these critical SCRs, and we closed the
outstanding significant recommendations on January 28, 2010.

Controls Over Money Orders49

Controls over replacement checks, account reconciliations, and escheatment50 needed
improvement. We recommended management reconcile the differences between Postal
Service policy and Money Order Inquiry System programming; revise and communicate
policy for completing PS Forms 6401, Money Order Inquiry; and initiate an SCR for
system edit(s) as necessary based on policy updates. We also recommended
management implement an SCR to eliminate the need for the manual calculation of the
reconciling item, and continue to research and resolve the remaining unreconciled
difference in the Outstanding Money Order Liability Account. Further, we recommended
management—

    Use the newly acquired data analytics tool to review the detailed money order data
     at least annually to ensure money orders are properly escheated.


45
   New York International Service Center – Inbound International Mail (Report Number FT-AR-08-005, dated
January 24, 2008).
46
   Express Mail is a trademark of the Postal Service.
47
   Los Angeles International Service Center – Inbound International Mail (Report Number FT-AR-10-001, dated
October 13, 2009)
48
   Parcel Post is a trademark of the Postal Service.
49
   Controls Over Money Orders (Report Number FT-AR-10-009, dated February 22, 2010).
50
   This is the monthly process of recording money orders outstanding for more than 2 years as miscellaneous
revenue and removing them from the Outstanding Money Order Liability Account in the subsidiary ledger.


                                                       15
Fiscal Year 2010 Postal Service Financial Statements Audit –                    FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


   Escheat those money orders identified in our audit that were still outstanding after
    2 years.

   Meet applicable business rules.

Management implemented or plans to implement the following:

   Implemented a new electronic money order inquiry process (e6401) in January 2011
    and communicated information regarding the new process, along with any updates
    to the policy for completing PS Forms 6401.

   Submitted an SCR in October 2009 regarding account reconciliations that is
    dependent on funding, and that funding is expected to be available by
    September 30, 2011.

   Developed an alternative analytics tool to identify additional money orders eligible for
    escheatment and, in February 2010, escheated more than 1,500 money orders,
    including those previously identified by the OIG.

   Will initiate a SCR for system edits based on PS Form 6401 policy updates, if
    necessary.

   Will continue to review monthly the unidentified difference in the Outstanding Money
    Order Liability Account.

   Will continue to run the analytics tool regularly.

As a result, we consider all but three recommendations closed. We will continue to
monitor the replacement check and account reconciliation issues as part of our annual
financial statement audit work.




                                                  16
Fiscal Year 2010 Postal Service Financial Statements Audit –                                         FT-AR-11-009
 St. Louis Information Technology and Accounting Service Center


                                APPENDIX C: MONETARY IMPACTS


                   Finding Impact                                Category                 Amount
           Air Transportation
                                               Unrecoverable Unsupported
           Contract Requisition                                                         $39,797,030
                                               Questioned Costs51
           Approval
           New Leases without JOE
           or Signed by Officials
                                               Unrecoverable Unsupported
           Without Proper                                                                 12,446,311
                                               Questioned Costs
           Contracting Authority in
           eFMS
           Lease Appraisals
           Without Appropriate
                                               Unrecoverable Unsupported
           Signatures and/or                                                              21,200,204
                                               Questioned Costs
           Appropriate
           Documentation
                        Total                                                           $73,443,545




51
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations. These
costs are also not supported by adequate documentation.


                                                        17
